                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A03100055                     I

                                                                                 11          Page 1 of 1



         We reviewed 71 grants selected by a random sampling procedure from NSF Fiscal Year 2001
         awards for conferences, workshops and symposia. As part of the review, we requested grant
         records from each grantee. .Where the records indicated possible issues, we opened inquiries to
         resolve the issues.

         In a grant that supported participation in a workshop1,we identified a significant expenditure that
         appeared unrelated to the purpose of the grant. We opened an inquiry to resolve this issue. Our
         review of records subsequently determined that the expenditure reflected an allowable change in
         the workshop date and location. Accordingly, this case is closed.




NSF OIG Fonn 2 (1 1102)
